V
No.

IN THE SUPREME COURT OF THE UNITED STATES

Michael Bernard Potere,
Petitioner,
vs.
The State Bar of California,
Respondent.

PROOF OF SERVICE

I, Michael Bernard Potere, do swear or declare that on this date, June 28,
2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF
CERTIORARI, and PETITIONER’S MOTION TO STAY THE WRIT OF
CERTIORARI PROCEEDINGS on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Office of General Counsel - State Bar
180 Howard Street
San Francisco, CA 94105
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 28, 2021.

Michael Bernard Potere
Petitioner, pro se

RECEIVED

JUL - g 2021
©FPICE OF THE CLERK
SUPREME COURT. U.S.

